       INDEPENDENT AUDITOR’S REPORT ON THE CONDENSED
                   FINANCIAL STATEMENTS

Chairman Dale E. Klein
United States Nuclear Regulatory Commission

We have audited the balance sheet of the United States Nuclear Regulatory Commission (NRC)
as of September 30, 2008, and the related statement of net cost, statement of changes in net
position and statement of budgetary resources (Principal Statements) for the fiscal year then
ended. Our audit was performed in accordance with auditing standards generally accepted in the
United States of America; the standards applicable to financial audits contained in Government
Auditing Standards, issued by the Comptroller General of the United States; and OMB Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. In our report
dated November 7, 2008, we expressed an unqualified opinion on those Principal Statements.
The Principal Statements of NRC as of and for the year ended September 30, 2007, were audited
by other auditors, whose report, dated November 7, 2007, expressed an unqualified opinion on
the fiscal year 2007 financial statements.

As discussed in note 1 to the fiscal year 2008 Principal Statements referred to above, NRC
revised its methodology for accounting for accounts payable as of September 30, 2008. We have
not determined what impact, if any, this revised methodology may have had on the Principal
Statements if applied in the prior year.

In our opinion, the information set forth in the accompanying condensed financial statements is
fairly stated in all material respects in relation to the Principal Statements referred to above from
which it has been derived.

In accordance with Government Auditing Standards, our report on the Principal Statements
referred to above includes a report on the effectiveness of internal control over financial
reporting and a report on compliance with laws and regulations for the fiscal year ended
September 30, 2008. In those reports, we identified a significant deficiency related to procedures
for determining accrued accounts payable and a substantial noncompliance with the Federal
financial management system requirements under the Federal Financial Management
Improvement Act related to certification and accreditation of the License Fee Billing System.
Those reports are integral parts of a financial statement audit performed in accordance with
Government Auditing Standards and should be considered in assessing the results of our audit.




Arlington, Virginia
November 7, 2008
